126054
*,.

■»

. 2020IL App( 1st) 163179-U
FOURTH DIVISION
April 23, 2020
No. 1-16-3179
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.

LAMAR WHATLEY
Defendant-Appellant.

)
)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
Cook County.
No. 14 CR 16287
Honorable
Charles P. Burns,
Judge Presiding.

JUSTICE BURKE delivered the judgment of the court.
Presiding Justice Gordon and Justice Reyes concurred in the judgment.
ORDER

Hi

Held: (1) The State proved defendant guilty beyond a reasonable doubt; (2) the trial court
did not err in denying defendant’s motion to suppress evidence; (3) the trial court
did not err in allowing the State to introduce the prior inconsistent statement of a
witness; and (4) defendant’s sentence does not violate the proportionate penalties
clause of the Illinois Constitution.

H2

Following a jury trial, defendant Lamar Whatley was convicted of two counts of attempted

first degree murder during which he personally discharged a firearm that proximately caused great
bodily harm and two counts of aggravated battery for discharging a firearm that caused injury
related to the August 21, 2014, shootings of Dana Harvey and Jarrod Wright. Defendant was also

SUBMITTED - 9385465 - Danielle Lockett - 6/3/2020 2:25 PM

3'

126054
No. 1-16-3179
convicted of one count of unlawful use of a weapon by a felon (UUWF) at a simultaneously held
bench trial. The trial court subsequently sentenced defendant to consecutive terms of 33 years in
prison, for an aggregate term of 66 years.
H3

Defendant appeals, arguing that (1) the State failed to prove defendant guilty of armed

robbery beyond a reasonable doubt because the State failed to prove he acted with requisite intent
to kill either Harvey or Wright; (2) the trial court erred by denying defendant’s motion to suppress
where the State failed to establish that the warrantless search of defendant’s car was lawful; (3)
the trial court erred in allowing the State to introduce a portion of Nakia Wright’s prior videotaped
statement which was not inconsistent with her trial testimony; and (4) defendant’s 66-year sentence
is unconstitutional as applied to him because under the mandatory sentencing statutes, defendant’s
-sentence amounts to a de facto natural life sentence.
I. BACKGROUND

11 4
H5

In September 2014, defendant was charged by indictment with several criminal offenses,

including the attempted first degree murders of Dana Harvey and Jarrod Wright during which
defendant personally discharged a firearm that proximately caused great bodily harm to each of
the victims, the aggravated battery of Harvey and Wright, and UUWF.
H6

Prior to trial, defendant filed a motion to quash arrest and suppress evidence. On September

13, 2016, the trial court conducted a hearing on defendant’s motion. At the start of the hearing, the
following colloquy took place between the court and the parties:
“TRIAL COURT: This is a motion to quash arrest, is that right, and suppress
physical evidence?
DEFENSE COUNSEL: Yes.
PROSECUTOR: Suppress the evidence.

2

SUBMITTED - 9385465 - Danielle Lockett - 6/3/2020 2:25 PM

sm

OIS y

.^5

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Lamar Whatley
Reg. No. Y-17653
Hill Correctional Center
P.O. Box 1700
Galesburg IL 61402

September 30, 2020
in re:

People State of Illinois, respondent, v. Lamar Whatley, petitioner.
Leave to appeal, Appellate Court, First District.

126028
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

Very truly yours

Clerk of the Supreme Court

Received
OCT 16 2020

Report of Proceedings ("R")
Direct

Cross

Redir.

Recr.

Volume I
September 24, 2014
Jury Trial
A2

Arraignment
September 13, 2016

FF3

Motion to Suppress Evidence
Arguments
Opening Statements
Mr. Scanlon (Petitioner)

FF4

Mr. Kantas (Respondent)

FF5

Petitioner Witnesses
Det. Reggie Cotton

FF6

FF14

FF16

Officer John J. Burke

FF18

FF24

FF26

Examination by the Court

FF27

Petitioner Rests

FF28

Respondent Rests

FF28

Arguments
Mr. Scanlon (Petitioner)

FF28

Mr. Kantas (Respondent)

FF29

Mr. Scanlon (Petitioner)

FF29
FF31

Ruling
Volume II
October 18, 2016

116

Jury Selection

A-2

should vacate Whatley’s sentences and remand the cause for resentencing
without the mandatory firearm enhancements. See People u. Barnes, 2018
IL App (5th) 140378, ^ 29 (remanding for resentencing without the mandatory
firearm enhancements after finding that the enhancements, as applied
to the defendant, violated the proportionate penalties clause).

48

Direct

Cross

Redir.

Recr.

Opening Statements
Mr. Kantas (State)

II189

Mr. Simmonds (Defense)

II192

States Witnesses
Nakia Wright

II196

Dana Harvey

II223

II220

Volume III
Continuation

II249

II266

II274

Volume IV
October 19, 2016
Jarrod Wright

JJ5

JJ36

JJ43

Det. Chambliss

JJ47

JJ59

JJ62

Officer John Burke

JJ64

JJ80

Ellen Chapman

JJ90

JJ105

Det. Donna Walsh

JJ107

JJ114

Patrick Turnock

JJ118

JJ142
JJ161

State Rests
Motion for Directed Verdict - Denied

JJ172

Defense Rests
October 20, 2016
Closing Arguments
Ms. Cooper (State)

KK9

Mr. Scanlon (Defense)

KK21

Mr. Kantas (State)

KK26
KK51

Verdict of Guilt

A-3

Direct

Cross

Redir.

Recr.

Volume V
November 14, 2016
LL3

Motion for New Trial - Denied
Sentencing Hearing
Argument in Aggravation

LL3

Argument in Mitigation

LL5

Allocution

LL5

Imposition of Sentence

LL9

Notice of Appeal to be Filed

LL10

State Appellate Defender to be Appointed

LL11

A-4

